  AUDIT OF PBS’S RESPONSE TO
      HURRICANE KATRINA
REPORT NUMBER A070075/P/R/R08003

          March 20, 2008
Date:          March 20, 2008

Reply to       R. Nicholas Goco
Attn of:       Deputy Assistant Inspector General
               For Real Property Audits (JA-R)

Subject:       Audit of PBS’s Response to Hurricane Katrina
               Report Number A070075/P/R/R08003

To:            David L. Winstead
               Commissioner, Public Buildings Service (P)

This report presents the results of our audit of the Public Building Service’s (PBS) response to
Hurricane Katrina. The audit analyzed Hurricane Katrina damage prevention, assessment, and
mitigation efforts, as well as PBS’s procedures for identifying and addressing tenant needs.
Lastly, the audit examined the financial implications of Hurricane Katrina on the Federal
Buildings Fund.

The audit revealed that in preparing for Hurricane Katrina, PBS had limited disaster related
standard operating procedures and building-specific disaster plans, which contributed to an
inconsistent preparation. On some levels, the organization was both efficient and effective. For
example, on the whole, PBS effectively disseminated information to customers. However, the
degree of building preparations undertaken to minimize damage varied widely. In the aftermath
of the hurricane, PBS quickly deployed personnel to assess and repair damaged buildings as well
as meet customer agency space needs. The demand for construction services and leased space
was high and as a result, PBS had to absorb high repair and leasing costs in an effort to restore
buildings quickly and respond to customer needs. Finally, as a result of the hurricane, PBS
incurred additional leasing costs for buyouts of existing leases due to hurricane damage as well
as some post-hurricane leasing actions that customer agencies vacated before the end of the lease
term.

If you have any questions regarding this report, please contact me on (202) 219-0088.



R. Nicholas Goco
Deputy Assistant Inspector General for Real Property Audits
Real Property Audit Office (JA-R)
                             Audit of PBS’s Response to Hurricane Katrina
                                               A070075

TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................. i
INTRODUCTION .............................................................................................................. 1
          Background ............................................................................................................. 1
          Objectives, Scope and Methodology ...................................................................... 2
RESULTS OF AUDIT........................................................................................................ 3
          Overview ................................................................................................................. 3
          PBS had limited disaster-related standard operating procedures (SOPs) in place
          prior to Hurricane Katrina. ...................................................................................... 3
          Since the hurricane, PBS has improved its methodology to perform damage
          assessments for Government owned buildings. ...................................................... 5
          Due to the increased demand for construction services in disaster areas, PBS
          encountered high building repair costs. .................................................................. 7
          In Region 7, PBS was unable to exercise the Fire and Casualty Damage clauses
          for hurricane-damaged leased space within the allowed timeframe. ...................... 8
          To ensure customer needs were met, PBS used different approaches to provide
          space...................................................................................................................... 11
          Hurricane Katrina rendered some GSA customer space un-tenantable, causing
          PBS to sustain net rent revenue losses of approximately $10.1 million. .............. 12
          GSA spent approximately $103 million to repair GSA-owned properties
          damaged by Hurricane Katrina. ............................................................................ 12
          Conclusion ............................................................................................................ 13
          Recommendations ................................................................................................. 14
          Management Controls ........................................................................................... 14
          Management Comments ....................................................................................... 15
APPENDIX A - Management Comments ...................................................................... A-1
APPENDIX B - Response to Management's Comments ................................................ B-1
APPENDIX C - Report Distribution............................................................................... C-1
                    Audit of PBS’s Response to Hurricane Katrina
                                      A070075

EXECUTIVE SUMMARY


Purpose

The audit objectives were to review the effectiveness of preventive actions taken by the
General Services Administration (GSA) to safeguard assets and prepare GSA tenants for
Hurricane Katrina; analyze the processes used to assess and repair those properties
damaged by Katrina; review the steps taken by the Public Buildings Service (PBS) to
determine the necessary actions for affected leased properties (e.g. terminate, suspend, or
continue leases); and ascertain the financial implications of Hurricane Katrina on the
Federal Buildings Fund.

Background

Hurricane Katrina was one of the worst natural disasters the United States has ever
experienced. Katrina devastated the Gulf Coast, impacting 93,000 square miles of the
United States, flooding the city of New Orleans, and causing an estimated $96 billion in
damage. The impact zone spanned two GSA regions: 200 miles wide, as far west as
Louisiana, as far east as Florida, and as far north as Kentucky. The storm caused
extensive damage to a number of Federal buildings, including the U.S. Customs House in
New Orleans, LA, and the Dan M. Russell Jr. Federal Building and United States
Courthouse in Gulfport, MS.

The devastation caused by Hurricane Katrina dramatically increased PBS’s workload. In
addition to contributing to GSA’s support to the Federal Emergency Management
Agency (FEMA) per the National Response Plan, PBS had to prepare its customers and
assets for and respond to Katrina while also maintaining its normal operations. To
accomplish this, PBS engaged a cadre of personnel, including property managers, leasing
specialists, contracting officers, attorneys, engineers, and environmental,
telecommunication and supply specialists. PBS’s efforts played a key role in the quick
re-opening of the Federal government in the aftermath of the storm.

Results-in-Brief

In preparing for Hurricane Katrina, PBS had limited disaster related standard operating
procedures and building-specific disaster plans, which contributed to inconsistent
preparation. On some levels, the organization was both efficient and effective. For
example, on the whole, PBS effectively disseminated information to customers.
However, the degree of building preparations undertaken to minimize damage varied
widely.

In the aftermath of the hurricane, PBS quickly deployed personnel to assess and repair
damaged buildings as well as meet customer agency space needs. The demand for
construction services and leased space was extraordinary and as a result, PBS had to

                                              i
absorb inflated repair and leasing costs in an effort to restore buildings quickly and
respond to customer needs. Also, as a result of the hurricane, PBS incurred additional
leasing costs for buyouts of existing leases due to hurricane damage as well as some post-
hurricane leasing actions that customer agencies vacated before the end of the lease term.

Recommendations

To improve PBS’s disaster preparations and response, we recommend that the
Commissioner of the Public Buildings Service:

   1. Ensure that disaster related standard operating procedures are developed and
      building-level disaster preparations, including those to be performed by
      contractors, are developed for buildings in hurricane zones to ensure measures are
      taken to adequately safeguard real property assets during future disasters;

   2. Ensure steps are taken to prepare tenants in hurricane zones before each hurricane
      season, such as updating and providing Region 4’s “Hurricane Preparedness”
      presentation;

   3. Continue to enhance and improve PBS’s damage assessment capabilities, such as
      the “PC Tablets,” developed by Region 4 personnel, for future disaster responses;

   4. Explore alternative methods to procure and administer repair and remediation
      contracts to control costs after a major disaster;

   5. Ensure that measures are taken to follow up with lessors and obtain refunds as
      appropriate for terminated leased space that is re-let or sold after government
      buyouts; and

   6. Follow through with efforts to update the boilerplate Fire and Casualty Damage
      clause to allow for situations where PBS is unable to access leased buildings,
      assess building damage, or contact lessors in order to prevent buyout agreements
      from occurring in future disasters.




                                             ii
INTRODUCTION


Background

The General Services Administration (GSA), Public Buildings Service (PBS) serves as
the civilian Federal government’s landlord, managing a diverse portfolio of real estate
that includes over 340 million square feet of space in office buildings, courthouses,
border stations, warehouses, etc. It serves nearly 60 agencies (over 400 bureaus), the
U.S. Courts, and Congress, and houses over one million Federal employees.

In the 2005 hurricane season, PBS faced three major hurricanes: Katrina, Rita, and
Wilma. While each impacted GSA customers and real property assets in the Gulf Coast
region, Hurricane Katrina was one of the worst natural disasters the United States has
ever experienced. Katrina devastated the Gulf Coast, impacting 93,000 square miles of
the United States, flooding the city of New Orleans, and causing an estimated $96 billion
in damage. The impact zone spanned two GSA regions: 200 miles wide, as far west as
Louisiana, as far east as Florida, and as far north as Kentucky. Federal buildings such as
the U.S. Customs House in New Orleans, LA and the Dan M. Russell Jr. Federal
Building and United States Courthouse in Gulfport, MS sustained extensive damage.

The devastation caused by Hurricane Katrina dramatically increased PBS’s workload.
Under the National Response Plan Emergency Support Functions, GSA was charged with
providing procurement and communications assistance to the Federal Emergency
Management Agency (FEMA). This required the deployment of a number of PBS
contracting officers, leasing specialists, and other professionals. Concurrently, PBS had
to prepare its customers and assets for, and respond to, Katrina while also maintaining its
normal operations. PBS emergency response actions commenced within the first 24-72
hours of the hurricane. The scope and number of employees GSA deployed nationwide
to help with the response for FEMA and to continue GSA operations was unprecedented.

As landlord for the civilian Federal government, PBS is responsible for safeguarding the
Government’s real property assets and for providing space and services to its customers.
For Katrina, this included preparing customers and real property assets for the hurricane;
maintaining customer communications/hotlines; assessing damage caused by the
hurricane; helping customers return to operational status; and returning owned and leased
space to operational status. To protect its assets and assist its customers, GSA deployed a
cadre of associates, including property managers, leasing specialists, contracting officers,
attorneys, engineers, and environmental, telecommunication and supply specialists. In
Regions 4 and 7, these efforts were a major undertaking. Materials, labor, and leased
space were in short supply, and PBS associates had to deal with extremely adverse
working and contracting conditions.




                                              1
Objectives, Scope and Methodology

The audit objectives were to:

   1. Review the effectiveness of preventive actions taken by GSA to safeguard assets
      and to prepare GSA tenants for Hurricane Katrina;

   2. Analyze the processes used to assess and repair those properties damaged by
      Katrina;

   3. Review the steps taken by PBS to determine the necessary actions for affected
      leased properties (e.g. terminate, suspend, or continue leases); and

   4. Ascertain the financial implications of Hurricane Katrina on the Federal Buildings
      Fund.

The audit included a review of the PBS controls and procedures in place to ensure
efficient and effective disaster preparation and response. Specifically, the audit analyzed
Hurricane Katrina damage prevention, assessment, and mitigation efforts, as well as
PBS’s procedures for identifying and addressing tenant needs. Lastly, the audit examined
the financial implications of Hurricane Katrina on the Federal Buildings Fund.

Audit fieldwork was conducted in the Southeast Sunbelt (Region 4) and Greater
Southwest (Region 7) regions, as well as GSA National Office.

Fieldwork was conducted between February 2007 and August 2007. The audit was
performed in accordance with generally accepted Government auditing standards.




                                             2
RESULTS OF AUDIT


Overview

In preparing for Hurricane Katrina, PBS had limited disaster-related standard operating
procedures and building-specific disaster plans, which contributed to inconsistent
preparation. On some levels, the organization was both efficient and effective. For
example, on the whole, PBS effectively disseminated information to customers.
However, the degree of building preparations undertaken to minimize damage varied
widely.

In the aftermath of the hurricane, PBS quickly deployed personnel to assess and repair
damaged buildings as well as meet customer agency space needs. However, the demand
for construction services and leased space was extraordinary and as a result, PBS had to
absorb increased repair and leasing costs in an effort to restore buildings quickly and
respond to customer needs. PBS may have paid higher costs for some repair work due to
the extended use of a time and material contract as well as inflated post-disaster
construction rates. Also as a result of the hurricane, PBS incurred additional leasing costs
for both existing leases and post-hurricane leasing actions. PBS absorbed more than $5
million because it was unable to execute the Fire and Casualty Damage clause on several
existing leases. Due to the post hurricane market conditions, PBS incurred additional
costs to buy-out long-term leases awarded to satisfy customer agency requirements
immediately after the hurricane.

To improve its preparation and response for future disasters, PBS should continue and
enhance efforts that have been made since Hurricane Katrina. For example, PBS should
develop a comprehensive checklist that clearly enumerates building-level preparations,
including those to be performed by contractors, and incorporate it into the Standard
Operating Procedures (SOPs) that Region 4 has developed. Further, PBS should continue
to enhance and utilize the “PC Tablet” assessment tool developed by Region 4 personnel
for use during future disaster responses. PBS should also alter the boilerplate Fire and
Casualty Damage lease clause to allow for situations where it is unable to access leased
buildings, assess building damage or contact lessors, thus avoiding the need for buyout
agreements. In addition to these measures, PBS should attempt to lessen fiscal damages
sustained from lease buyouts after Hurricane Katrina by following up with lessors and
taking measures to ensure refunds are received as appropriate for terminated leased space
that is sold or re-let after government buyouts.

PBS had limited disaster-related standard operating procedures (SOPs) in place
prior to Hurricane Katrina.

While preparing for Hurricane Katrina, PBS had limited standard operating procedures
available at the national or regional levels. In Region 4, only limited guidance was
available at the service center level. One service center had a “Hurricane Checklist” and
a “Hurricane Response Plan,” which provided general hurricane instructions and outlined


                                              3
the initial response to a major storm, but they only addressed that service center’s
property management activities. Another service center provided copies of similar
checklists, but they were developed “on the fly” while preparing for Katrina as there was
no plan in the local office.

In Region 7, Continuity of Operations (COOP) plans were in place at the service centers;
however, no regional or building level plans were in place. In September 2004,
instructions had been emailed from the Louisiana Service Center to develop
evacuation/building protocols and designated official responsibilities. However, there
was no documentation indicating that that had been done and no formal SOPs in place
outlining those responsibilities. In addition, the emergency operating plan developed by
the building management contractor for the Federal Complex in New Orleans was a one
page document that primarily addressed damage assessment and response rather than
identifying building level preparations for a natural disaster.

Lack of SOPs resulted in inconsistent levels of building preparation.

Despite the lack of SOPs, PBS appears to have made considerable efforts to prepare some
GSA-owned buildings for Hurricane Katrina. For example, PBS made a last-minute
decision to install plywood on the first two floors of the Gulfport Courthouse and on the
entire annex. According to the former Assistant Regional Administrator (PBS), this
$20,000 investment may have saved the building. Likewise, PBS took steps to prepare
the New Orleans Federal Complex including securing the doors and windows,
sandbagging entrances, turning off utilities, shutting down all but the freight elevator,
removing exterior “fly-away items”, securing all roof equipment, and ensuring that roof
drains were clear of litter and debris.

Actions taken at other locations were insufficient and may have resulted in avoidable
damage. The John A. Campbell United States Courthouse (USCT) and the adjacent
Federal Building in Mobile, AL sustained approximately $1.66 million in damage. PBS
personnel in these locations indicated that there was no checklist available to use as
guidance for the hurricane preparation and response, and needed supplies were not
always on hand. For example, sand bags were purchased to keep water from entering the
buildings via doorways, but sand was not. Additionally, electrical ducts below ground
level were not sealed, possibly causing flooding in the basement and damaging
emergency generators. Further, PBS personnel did not return after the storm in time to
prevent mold from growing in the building annex. Also, tenants in the Federal Building
indicated that generators were on the building property list, but were not actually in the
building. While these damages may not have been entirely avoidable, better building
preparation and response may have reduced building damage considerably.

PBS actively disseminated hurricane-related information to customer agencies.

While there were no SOPs in place during the Katrina preparations and response, PBS
did attempt to keep customers apprised of hurricane-related information using a variety of
communication tools. PBS contacted customer agencies before Katrina hit, posted


                                             4
information on the GSA website, and set up an information hotline. Additionally, tenants
indicated that building managers also gave in-person notification and assisted with
preparations, although the extent of this notification and assistance varied. This outreach
helped to assist customer agencies in preparing for the storm as well as restoring
operations.

PBS has taken steps to address the lack of SOPs.

After Katrina, Region 4 PBS assembled a cross-divisional Disaster After-Action Review
Team (DART) to review the 2005 lessons learned and document SOPs for future
disasters. The DART developed a comprehensive set of disaster SOPs for Region 4 PBS
that describes the roles and responsibilities of the various disciplines involved with
disaster preparation and response. Per Region 4 management, these SOPs are the
“foundation for workers with any level of experience.” Region 4 has shared these SOPs
with Region 7 personnel. Further, Region 4 developed a hurricane preparedness
PowerPoint presentation for clients that provides information about the disaster
preparation and response process. This presentation describes lessons learned from past
hurricane seasons, as well as measures that PBS has taken to prepare for future
hurricanes. It also included storm projections and pre- and post-storm instructions for the
2006 season. As of April 1, 2007, Region 7 PBS created the Emergency Management &
Security Division (7PS), which is dedicated full time to emergency management,
preparation and response. Each member of the division has hands on experience from
prior disasters (many from Katrina) and is trained to handle disasters of this scope and
magnitude.

While PBS has taken steps to address the lack of SOPs, improvement efforts need to be
continued and enhanced. The SOPs refer to a “hurricane planning checklist” that should
be reviewed by service centers prior to hurricane seasons and used during the execution
phase of a hurricane response, but do not clearly enumerate actual building-level
preparations. Further, they do not address the responsibilities of Operations and
Maintenance (O&M), elevator, and cleaning contractors. PBS should develop and
incorporate a comprehensive “checklist” that clearly identifies building-level
preparations, including those to be performed by contractors, to ensure measures are
taken to adequately safeguard real property assets during future disasters. If PBS’s intent
is for the “hurricane planning checklist” to be developed and tailored at the service center
or building level, PBS should take measures to ensure that these checklists are actually
developed and made available to appropriate personnel. Additionally, PBS should update
the “Hurricane Preparedness” presentation and present or distribute it to PBS tenants
before each hurricane season.

Since the hurricane, PBS has improved its methodology to perform damage
assessments for Government owned buildings.

In Region 4, there were 189 leased and 14 GSA-owned locations in the FEMA declared
Disaster Area. In Region 7, 49 leased and 13 GSA-owned locations were affected. In
total, PBS had to assess hurricane damage at 265 buildings in the Southeast Sunbelt and


                                              5
Greater Southwest regions. This posed a daunting task for PBS given the condition of the
affected regions after the storm.

To perform building assessments, Region 4 and Region 7 took slightly different
approaches. Region 4 used multi-disciplinary, geographically dispersed teams of GSA
employees to perform the assessments for GSA-owned buildings, while Region 7 utilized
both GSA employees and contractors. In Region 4, assessment teams were pre-deployed
to Birmingham, AL before the storm so they could deploy quickly to the impact zone
once the storm had passed. Assessors were onsite within 24-72 hours of the hurricane.
In Region 7, contractors were given notice to proceed on September 2, 2005; however,
they were unable to enter the New Orleans area due to access restrictions. On September
8, 2005, PBS employees accompanied contractors to begin assessing building damage,
but in some cases could not perform complete assessments until flood waters receded.
Both regions also used the Department of Health and Human Services, Federal
Occupational Health Service, with whom GSA has an Interagency Agreement for
industrial hygiene and environmental safety related matters.

The methodology used by GSA and by contract assessors to perform building
assessments was essentially the same. Initial assessments dealt primarily with gauging
the status of a building's envelope, e.g., walls, windows, doors, and roof, from the effects
of wind and water damage. Assessors also evaluated utility availability by consulting
local officials, when available, or through observation. Once observations of the building
envelope and area utility service status were completed, assessors attempted building
entry to perform floor-by-floor, room-by-room damage evaluations. When building entry
was not possible, assessors would visually survey the building interior to the extent
allowed by its window placement. Once a building had been assessed, the information
was documented and relayed to the regional offices.

Region 4 PBS has developed an interactive assessment tool to assist with future building
damage assessments.

After Hurricane Katrina, Region 4 developed “PC Tablets” to assist with the assessment
process. These tools are pre-loaded with the data necessary to perform assessments (e.g.
building info, GPS maps, contact info, etc.). This lessens the administrative burden for
building assessors working in the field, as assessors need to input only actual assessment
data. Assessments performed using these PC Tablets are interactive, taking assessors
through a series of conditional questions. Assessment data is time stamped, so confusion
derived from conflicting information in changing conditions can be avoided. Region 4
shared these PC Tablets with Region 7, which planned to begin using the tool in 2007.
PBS should continue to enhance and utilize these PC Tablets during future disaster
responses.




                                              6
Due to the increased demand for construction services in disaster areas, PBS
encountered high building repair costs.

The widespread devastation caused by Katrina created an intense demand for remediation
and repair services, forcing GSA to compete with local businesses for a limited number
of contractors, supplies, and services. In the urgency to restore and repair damaged
facilities, PBS absorbed high building repair costs for both the Dan M. Russell Jr.
Courthouse in Gulfport, MS and the John A. Campbell USCT in Mobile, AL projects.

To repair and remediate the Dan M. Russell Jr. Courthouse, PBS absorbed high costs for
the extended use of a time and materials contract.

The Dan M. Russell Jr. Courthouse in Gulfport, MS suffered extensive damage from the
hurricane. To begin the repair and remediation process, the contracting officer (CO)
hired an estimating contractor the day after the hurricane. However, the contractor could
only see the surface damage and, therefore, PBS could not develop a clear scope of work.
Given the uncertainty of the scope of work required, PBS determined that its best
available option was to award a time and materials contract for the remediation and repair
work. Per the CO, the intention was to change from a time and materials contract to
fixed pricing as soon as possible. The expectation was that remediation work would be
performed on a time and materials basis. When that was completed, they would have a
better idea of what was necessary to repair the building and could then switch to a firm
fixed priced contract. However, per the CO, there was no “meeting of the minds” for the
initial contract among the CO, the contractor, and the project manager. As a result, the
time and materials basis was used for some of the build-back work and only the final
portion of the contract was fixed price. The extended use of the time and materials
contract placed the responsibility for all costs, including any contractor inefficiencies, on
PBS.

In addition, the time and material contract provided for the application of a [redacted by
GSA OIG] percent burden for overhead and an additional [redacted by GSA OIG]
percent profit. Due to the urgency of the requirement, the labor rates for the contract
were not initially negotiated. When the contractor submitted the labor rates, it provided
only the billing rates and did not break down their content. When PBS’s estimator
reviewed the billing rates and determined that they were fair and reasonable given the
market conditions, he believed that the rates included overhead and profit. However,
since the contractor did not provide detail for the rates, PBS personnel were unable to
determine whether the rates had already been burdened with overhead and profit. When
the contractor billed under the time and materials portion of the contract, it applied the
additional [redacted by GSA OIG] percent overhead and [redacted by GSA OIG] percent
profit to the billing rates, which, according to the contracting officer, may have added
between $500,000 and $1 million to the repair costs. The CO expressed concern over the
rates, but ultimately constructively accepted them by approving the invoices for payment.

The cost of remediation and repair for the John A. Campbell USCT and Federal Building
included a premium for the post-hurricane market conditions.


                                              7
After developing a scope of work and estimates for the John A. Campbell USCT and
Federal Building in Mobile, AL, PBS negotiated a contract with an 8(a) small business to
perform repair work in the Courthouse and Federal Building. PBS elected to use an 8(a)
small business so that it could award a contract quickly. (Since the contract value was
less than $3 million, PBS could award the contract to an 8(a) firm without competition.)
While the contractor submitted a proposal that was considerably higher than the
government estimate, PBS estimated that there should be a 50 percent premium because
of the increase in material costs and trouble finding labor. To reach the contract price,
they added 50 percent to the government estimate, then added lodging and per diem since
the contractor was from out-of-state. The contracting officer for this repair work
indicated that PBS could have competed the contract and awarded a “cleaner” contract
had they been able to put together a better scope of work. Additional work was necessary
for John A. Campbell USCT and Federal Building, but the building manager elected to
perform the work via a partition contractor because the 8(a) firm’s pricing was deemed
unreasonable.

PBS has taken steps to improve future disaster repair contracting efforts, but should
explore additional alternatives.

To avoid similar contracting difficulties in future disaster situations, GSA has awarded
indefinite delivery, indefinite quantity (IDIQ) contracts for disaster assistance. The intent
of these contracts is to enable GSA to remediate and take the necessary actions quickly
without having to negotiate under urgent and compelling circumstances. However, IDIQ
contractors may be subject to similar labor and material shortages that occurred in the
aftermath of Katrina and may not be able to respond to PBS contract requests. As such,
PBS needs to explore additional alternatives for procuring and administering repair and
remediation contracts to control costs when responding to a disaster.

In Region 7, PBS was unable to exercise the Fire and Casualty Damage clauses for
hurricane-damaged leased space within the allowed timeframe.

The GSA General Counsel’s Office                    552.270-7        Fire and Casualty Damage.
disseminated guidance regarding leased                As prescribed in 570.603, insert the following clause:
space damaged by Hurricane Katrina to both               FIRE AND CASUALTY DAMAGE (SEP 1999)
Region 4 and Region 7 on September 7,                  If the entire premises are destroyed by fire or other
                                                    casualty, this lease will immediately terminate. In case
2005. This guidance was passed on to                of partial destruction or damage, so as to render the
various PBS personnel, and was intended to          premises untenantable, as determined by the
                                                    Government, the Government may terminate the lease by
assist realty professionals who were dealing        giving written notice to the Lessor within 15 calendar
with hurricane-damaged GSA leasehold                days of the fire or other casualty. If so terminated, no
                                                    rent will accrue to the Lessor after such partial
interests.     The guidance directs PBS             destruction or damage; and if not so terminated, the rent
personnel to examine lease General Clauses          will be reduced proportionately by supplemental
                                                    agreement hereto effective from the date of such partial
and Supplemental Lease Agreements to                destruction or damage. Nothing in this lease shall be
determine if the Fire and Casualty Damage           construed as relieving Lessor from liability for damage to
                                                    or destruction of property of the United States of
clause was intact or if it had been modified.       America caused by the willful or negligent act or
If intact (see 552.270-7 to the right), PBS         omission of Lessor.




                                                8
personnel should follow the appropriate protocol; if not, personnel should contact
Regional Counsel for further instruction. Despite the dissemination of this guidance,
PBS could not always perform damage assessments and exercise the Fire and Casualty
Damage clause for partially destroyed properties within the 15 calendar day period
allowed. As a result, GSA agreed to lease buyout agreements costing more than $5
million.

PBS’s ability to notify lessors of the Government’s decision to exercise the Fire and
Casualty Damage clause for partially destroyed properties appears to have been inhibited
by a number of factors. First, the degree of devastation caused by Hurricane Katrina
made it difficult for PBS to assess properties in the impact zone in order to make the
decision of whether or not to exercise the clause. For many buildings located in the New
Orleans area, it was physically impossible to perform the assessments because access to
the respective areas was not available during that timeframe. Flooding, mold
remediation, and other damage and environmental concerns caused by Katrina also made
it difficult to access damaged buildings. Further, even in the event that they could
perform assessments, lessors had evacuated the area and could not be located or
contacted within the required timeframe. Additionally, PBS’s labor force was focused on
finding space for displaced tenants and returning the Federal Government to operational
status. Lastly, there was confusion as to when notification of termination had to occur,
and what “notification” actually means. The boilerplate Fire and Casualty Damage
clause states that the Government should give “written notice to the lessor within 15
calendar days of the fire or casualty” for partially destroyed properties. However, this
clause was modified for some leases, requiring notice within 15 days of the
determination. PBS attempted to preserve its rights under the fire and casualty damage
clause by sending letters to lessors on September 12, 2005, notifying them that GSA
would make a determination of tenantability when able to access the properties.
However, since these letters were not actual notices of termination, the termination rights
under the clause expired.

Because of the difficulty in exercising the Fire and Casualty Damage clause Region 7
PBS agreed to a number of lease buyouts. Total buyout costs in Region 7 exceeded $5
million, including $4 million for one lease that represented 62 percent of the total
remaining full term rent net operating expenses. Below is a listing of leases that were
terminated via buyout agreements:

   •   GS-07B-14881: The firm term of this 21,000 rentable square feet (rsf) Social
       Security Administration (SSA) lease was 15 years, ending on July 15, 2017, with
       no termination rights other than those based on performance. As a result of the
       hurricane, this location was initially inaccessible. According to GSA’s inspection
       report dated September 22, 2005, the building had sustained severe damage due to
       approximately three feet of water that flooded the building. On October 4, 2005,
       the U.S. Public Health Service determined that the building was not occupiable
       and the building systems were not operational. On October 28, 2005, GSA
       informed the lessor that it may terminate the lease and inquired about buying out
       the lease. Subsequently, on January 27, 2006, SSA notified GSA that they would


                                             9
       exercise their right to vacate this lease in 120 days. GSA did not terminate the
       lease until July 13, 2006, via Supplemental Lease Agreement (SLA) #7. SLA #7
       terminated the lease effective August 31, 2005, with a one-time lump sum
       payment of $3,952,039. This represented 49 percent of the $7.9 million aggregate
       rental consideration on the lease if carried to term, or 62 percent of the remaining
       rental consideration.

   •   GS-07B-15405: The term of this 7,164 rsf Department of Labor lease for the
       Administrative Law Judges was 15 years, with termination rights after December
       31, 2008, in addition to those based on performance. On October 28, 2005, the
       contracting officer communicated to the lessor that the Government terminated
       the lease based on the Fire and Damage Casualty clause. However, on November
       1, 2005, the lessor rejected the Government's use of the Fire and Casualty
       Damage Clause since the Government failed to provide termination notice within
       15 days of the hurricane. The parties negotiated a buyout agreement for
       $205,000.

   •   GS-07B-15352: This was a lease construction project. Site work had begun
       before Katrina, but construction had not. After Hurricane Katrina hit, the
       demographics of New Orleans changed such that SSA no longer needed the office
       and canceled their request for the space. PBS had termination rights after the 8th
       year of this lease and entered into negotiations with the lessor, ultimately agreeing
       to a $770,000 buyout.

   •   GS-07B-13829: PBS attempted to suspend rents due to flooding damage on
       October 1, 2005. However the lessor disagreed since damage was limited to the
       first floor. PBS negotiated a reduced rent for vacant facilities, and terminated the
       lease under Supplemental Lease Agreement #8, effective August 31, 2005, for a
       one-time lump sum payment of $85,000. The firm term of the lease was to expire
       January 15, 2007.

While these buyout agreements resulted in substantial initial cash outflow, the
Government has the potential to recover some buyout costs in the event the properties are
re-let or sold during the remaining term of the respective Government leases. PBS
should follow up with lessors and take measures to ensure refunds are received as
appropriate. Further, to prevent similar situations from occurring after future disasters,
PBS should alter the boilerplate Fire and Casualty Damage clause to allow for situations
where it is unable to access leased buildings, assess building damage, or contact lessors.
Per the Acting Assistant Commissioner, Office of National Customer Service
Management, the Office of General Counsel has proposed such changes and the revised
clause has been included as part of the overall rewrite of the Solicitation For Offers
(SFO). Further, PBS planned to release the clause to the regions through a Realty
Services Letter. PBS should follow through with these efforts to update the boilerplate
clause.




                                             10
To ensure customer needs were met, PBS used different approaches to provide
space.

In the days following Hurricane Katrina, replacement office space for displaced
businesses was at an unprecedented premium. To procure temporary space for displaced
tenant agencies, Region 7 and Region 4 took different approaches. While Region 4 was
able to temporarily house most displaced tenants in modular units, Region 7 met
customer requirements by awarding temporary leases. However, due to the prevailing
market conditions, PBS was not always able to procure short term leases or leases with
termination rights.

Region 4 effectively used modular unit rentals to temporarily house displaced tenants.

In Region 4, Realty Services attempted to identify space before Katrina struck in the
event temporary space was needed. As part of their preparations, contract specialists
made contact with trailer companies, which ultimately became “lifesavers” for PBS and
its tenants since they could get units when others couldn’t. Most displaced tenants in
Region 4 were housed in these units, procured via GSA schedules, because many
permanent structures were damaged. In Gulfport, trailers were the only space available.
PBS was also able to minimize costs by using modular units, as rental agreements
generally had 6-month terms with options. Agencies were able to extend rental
agreements without unnecessarily entering into long-term leases.

To meet customer space needs, Region 7 awarded temporary leases with no termination
rights, resulting in rental payments for vacant properties and buyout agreements.

Region 7 PBS issued 42 temporary leases to house displaced tenants in leased space, with
lease terms ranging from 45 days to 3 years (with termination rights after 1 year). Due to
the tight real estate market after the hurricane, PBS, in some instances, had to lease space
for terms longer than the expected need in order to get the space and was unable to
negotiate lease termination rights. Further, client requirements were often uncertain, as
tenant agency needs were very fluid in the days following Katrina. We reviewed 13 of
the 42 temporary leases and found that eight leases did not contain termination clauses.
We also found that in 12 cases, customer agencies vacated before lease expiration. While
FEMA took over payments for one lease, GSA was responsible for rental payments for
the remaining 11.

Region 7 PBS also paid $674,951 in rental payments and buyout agreement costs for
leased space that was never occupied. The lease was awarded in anticipation of
occupancy by multiple law enforcement agencies for emergency and turnaround space.
However, the contracting officer for this lease rotated out of Baton Rouge and the space
was never occupied, forcing GSA to cover rental payments and buyout costs.

Region 7 PBS attempted to minimize costs for vacant leased space by trying to find other
tenants, but was unsuccessful in its efforts due to the degree of devastation in the area.
PBS also attempted to negotiate reduced rent for vacant space and turned off utilities.
Despite these efforts, the Government incurred expenses totaling nearly $1.2 million for

                                             11
the 13 leases reviewed for rental payments and buyout agreements for leased space that
was vacated before lease expiration. PBS should follow up with lessors and take
measures to ensure refunds are received as appropriate for terminated leased space that is
sold or re-let after government buyouts.

Hurricane Katrina rendered some GSA customer space un-tenantable, causing PBS
to sustain net rent revenue losses of approximately $10.1 million.

Per the September 14, 2005 "Pricing and Billing Clarification for Space Actions
Associated with Hurricane Katrina," PBS did not charge its customers rent for space that
was determined to be un-tenantable as a result of Hurricane Katrina. For leased space,
PBS terminated or suspended leases for those properties that were un-tenantable, thereby
limiting losses to rent revenue for damaged GSA-owned properties and the PBS fee for
leased space.     In total, PBS lost approximately $10.1 million in rent revenue for
Hurricane Katrina damaged properties.

Region 4 lost approximately $3.2 million in rent revenue for owned and leased
properties.

Region 4 lost approximately $3.1 million in rent revenue for GSA-owned properties
damaged by Hurricane Katrina (as of March 2007). Additionally, Region 4 lost over
$900,000 in rent revenue for leased space. However, GSA’s losses for leased space were
limited to the PBS fee since PBS cancelled or suspended leases for un-tenantable
properties effective August 29, 2005. Fees lost were approximately $68,000, bringing
total effective lost revenue to nearly $3.2 million.

Region 7 sustained net rent revenue losses of approximately $6.9 million.

Region 7 sustained considerably larger losses, losing approximately $1.5 million in
September 2005, $11.1 million in FY 2006, and $90,000 in FY 2007 (as of December
2006). Total lost revenue was approximately $12.7 million. Region 7 gained
replacement revenue of approximately $5.8 million to offset these losses, bringing net
losses to roughly $6.9 million.

GSA spent approximately $103 million to repair GSA-owned properties damaged
by Hurricane Katrina.

In addition to losing rent revenue, GSA also incurred approximately $103 million in
expenses to repair properties damaged by Hurricane Katrina. In Region 7, FY 2005-07
BA 54 1 obligations for Katrina-related building repairs totaled $53.8 million. Of this
amount, $35.6 million was used for the U.S. Customs House in New Orleans. Region 4
BA 54 obligations for the same period totaled $31.3 million, including $10.5 million for
repairs at the Dan M. Russell Jr. U.S. Federal Building and Courthouse in Gulfport, MS,
and an additional $1.3 million for its annex. Additionally, Regions 4 and 7 collectively


1
    BA54 is the budget account for non-prospectus repair and alteration.

                                                       12
obligated an additional $17.9 million from BA 61 2 for Katrina-related expenses. GSA
has received approximately $75 million in supplemental funding to offset these expenses:
$38 million from the December 31, 2005 Defense Appropriations Act (PL 109-148), and
an additional $37 million from the June 15, 2006 Emergency Supplemental Act (PL 109-
234).

Conclusion

Our audit identified a number of issues that impeded PBS’s ability to prepare for and
respond to Hurricane Katrina. First, PBS had limited disaster-related standard operating
procedures (SOPs) in place prior to Hurricane Katrina. In Region 7, no disaster
preparation plans were in place other than identifying first responders prior to Katrina. In
Region 4, only limited guidance was available at the service center level. While PBS has
since taken steps to address the lack of SOPs, these efforts need to be continued and
enhanced.

PBS was generally efficient in the damage assessment process and has developed a “PC
Tablet” to facilitate future damage assessments. However, the repair process did not
always go smoothly. The widespread devastation caused by Katrina created an intense
demand for remediation and repair services, forcing GSA to compete with local
businesses for a limited number of contractors, supplies, and services. As a result, the
Government paid inflated prices in some instances. In the case of the Dan M. Russell Jr.
Courthouse in Gulfport, MS, PBS absorbed the costs for the extended use of a time and
materials contract for remediation and repair work. For repair work performed at the
John A. Campbell USCT in Mobile, AL, PBS absorbed a 50 percent disaster premium.
In an effort to prevent similar problems for future disasters, PBS has awarded IDIQ
contracts for remediation and repair services. However, PBS still needs to explore other
alternatives for procuring and administering repair and remediation contracts to control
costs when responding to a disaster.

Hurricane Katrina left disastrous conditions in its wake which inhibited PBS’s ability to
exercise the Fire and Casualty Damage clause for hurricane-damaged leased space. This
clause, which allows the government to terminate partially destroyed leases for space
rendered un-tenantable by fire or other casualty, requires the Government to give written
notice to the lessor within 15 calendar days of the fire or other casualty in order to
exercise the clause. PBS’s inability to exercise this clause was particularly costly in
Region 7, where GSA agreed to lease buyout agreements costing the Government more
than $5 million. To prevent this in the future, PBS should alter the Fire and Casualty
Damage clause to address similar situations.

Lastly, as a result of market conditions and uncertain customer requirements after the
hurricane, PBS awarded some temporary leases with terms longer than client
requirements and no termination rights. While Region 4 was successful in its use of
modular unit rentals to temporarily house displaced tenants, market conditions in the
New Orleans area led Region 7 to award temporary leases with terms that were often
2
    BA 61 is the budget account for real property operations.

                                                        13
greater than tenants needed, ultimately resulting in vacant space and buyout agreements.
We reviewed 13 of the 42 temporary leases awarded in Region 7 and found that in 11
cases, customer agencies vacated before lease expiration. While PBS attempted to
minimize costs for vacant space by trying to find other tenants, negotiating reduced rent,
and turning off utilities, PBS still incurred nearly $1.2 million in rental payments and
buyout agreements for these 11 leases. To minimize these costs, PBS should follow up
with lessors and take measures to ensure refunds are received as appropriate for
terminated leased space that is sold or re-let after government buyouts.

Recommendations

To improve PBS’s disaster preparations and response, we recommend that the
Commissioner of the Public Buildings Service should:

   1. Ensure that disaster related standard operating procedures are developed and
      building-level disaster preparations, including those to be performed by
      contractors, are developed for buildings in hurricane zones to ensure measures are
      taken to adequately safeguard real property assets during future disasters;

   2. Ensure steps are taken to prepare tenants in hurricane zones before each hurricane
      season, such as updating and providing Region 4’s “Hurricane Preparedness”
      presentation;

   3. Continue to enhance and improve its damage assessment capabilities, such as the
      “PC Tablets,” developed by Region 4 personnel, for future disaster responses;

   4. Explore alternative methods to procure and administer repair and remediation
      contracts to control costs after a major disaster;

   5. Ensure that measures are taken to follow up with lessors and obtain refunds as
      appropriate for terminated leased space that is re-let or sold after government
      buyouts; and

   6. Follow through with efforts to update the boilerplate Fire and Casualty Damage
      clause to allow for situations where PBS is unable to access leased buildings,
      assess building damage, or contact lessors in order to prevent buyout agreements
      situations from occurring in future disasters.

Management Controls

We evaluated the internal controls relating to the PBS’s disaster preparation and response
that were appropriate to meet the objectives of this audit. Relevant internal controls
issues are discussed in the context of the audit findings.




                                            14
Management Comments

In general, PBS has concurred with all of the recommendations. However, PBS has
taken exception to the context in which some of the findings have been presented. PBS’s
comments are included in Appendix A of this report and the Audit Response is included
as Appendix B.




                                           15
    Appendix A


Management Comments




        A-1
A-2
A-3
A-4
A-5
A-6
A-7
A-8
A-9
A-10
A-11
A-12
A-13
                                      Appendix B


                        Response to Management’s Comments

The Office of Inspector General (OIG) thanks the Public Buildings Service (PBS) for its
consideration of and comments on the draft report. In response to PBS’s concerns, some
information in the report has been modified. In addition, several issues are addressed in
more detail below.

Overhead and profit for the Dan M. Russell Jr. Courthouse project

In the case of the Dan M. Russell Jr. Courthouse project, the repair and remediation
contractor applied a charge of [redacted by GSA OIG] percent for overhead and [redacted
by GSA OIG] percent for profit to its “billable” labor rates. The audit report notes that
PBS may have paid twice for overhead and profit, potentially costing the Government
between $500,000 and $1 million. PBS suggests in its response that the OIG remove this
statement or qualify it as a possibility, and further states that the OIG report does not
fully consider market conditions and customer uncertainty. PBS states that the labor rates
were deemed fair and reasonable.

To date, we have not received a determination by a PBS contracting officer that the labor
rates were fair and reasonable. As mentioned in the report, the labor rates submitted for
approval consisted of a single figure with no breakout of content, so PBS could not
determine the basis for the rates. In discussions with the audit team, the contracting
officer and the estimator who evaluated the rates believed that the proposed labor rates
included both overhead and profit. The contracting officer stated that it looked like the
rates would include overhead and profit when compared to Davis-Bacon wage rates. The
contracting officer expressed concern over the rates, but constructively accepted them by
approving the invoices for payment. These invoices billed [redacted by GSA OIG]
percent overhead and [redacted by GSA OIG] percent profit on top of the labor being
billed. As such, PBS was charged in excess of the submitted labor rates. According to
the contracting officer, these additional charges may have cost PBS between $500,000
and $1 million.

Fire and Casualty Damage clause

According to the report, PBS was unable to exercise the Fire and Casualty Damage
clause for leases in place before the hurricane and as a result, agreed to lease buyout
agreements costing more than $5 million. PBS disagrees with the conclusion and states
that the buyouts were implemented due to changing customer needs. PBS’s response
refers specifically to Social Security Administration lease GS-07B-14881, suggesting that
the primary catalyst for the $3.95 million buyout was the tenant’s announcement that it
would not return to the space.

However, this is contrary to information in the July 7, 2006 Findings & Determination for
Lease GS-07B-14881, which was prepared by regional contracting and legal personnel.
According to the document, an inspection report dated September 22, 2005, found the
building had sustained severe damage due to approximately three feet of water that


                                            B-1
flooded the building. On October 4, 2005, the U.S. Public Health Service inspected the
premises and determined that the building was not occupiable and the building systems
were not operational. On October 28, 2005, GSA personnel informed the lessor that
GSA may decide to terminate the lease and asked if the lessor would agree to a buyout of
the remaining term of the lease. Subsequently, on January 27, 2006, the Social Security
Administration notified GSA that it would vacate the lease and would not return to this
location. The Findings & Determination document further states, “The Government did
not exercise its right to terminate the lease within 15 days of the Casualty … and
therefore is obligated to pay reduced rental payments for the remainder of the contract
period.”

Other Issues

In some of its comments, PBS is responding to conclusions and suggestions that are not
stated in either the final or the draft report. As such, PBS is attributing issues and
conclusions to the Office of Inspector General although they are not in the report.

For instance, PBS states in its response that, “we believe it is inappropriate for the OIG to
audit the emergency procurement of alternate operating facilities under the same pricing
criteria used for normal PBS lease acquisitions…. The premiums paid for emergency
lease acquisitions were clearly documented in the response to Hurricane Katrina, and
PBS continues to believe the prices it paid for space were fair and reasonable given the
circumstances.” PBS later states that, “PBS lease COs were extremely concerned with
some of the prices they had to pay to acquire space under these circumstances.
Considering the undertone of the report, COs may be more reluctant to acquire space
needed for customers under similar emergency circumstances, which could hamper the
progress of responding to the emergency.”

However, the draft report does not address premium pricing for facilities leased
subsequent to Hurricane Katrina or make pricing comparisons using criteria used for
normal lease acquisitions. With regard to replacement leases, the report states that
replacement space for displaced businesses was at an unprecedented premium and
mentions the difficulties associated with finding space with favorable terms given the
prevailing market conditions.

PBS also states in its response, “The draft report appears to suggest that GSA should have
preemptively sought to terminate leases under the Fire and Casualty Damage clause prior
to the time the agency knew that premises were, in fact, untenantable. PBS and OGC
believe such a practice … would have represented an improper exercise of the clause.”
The report does not suggest that GSA should have taken any such action. The report
recognizes that since many properties were inaccessible and could not be assessed within
the 15-day timeframe in the boilerplate Fire and Casualty Damage clause, the clause
could not be exercised.




                                             B-2
                                                 Appendix C


                                           Report Distribution


                                                                                                    Copies

Commissioner, Public Buildings Service (P)................................................................. 3
Regional Administrator, Southeast Sunbelt Region (4A) .............................................. 1
Regional Administrator, Greater Southwest Region (7A) ............................................. 1
Regional Inspector General for Auditing (JA-4, JA-7) ................................................. 4
Regional Inspector General for Investigations (JI-4, JI-7) ............................................ 4
Assistant Inspector General for Auditing (JA, JAO) ..................................................... 2
Assistant Inspector General for Investigations (JI) ........................................................ 1
Branch Chief, Internal Control and Audit Division (BEI)…………………..…………1




                                                       C-1
